No. 19-1134

 

IN THE

Supreme Court of the Anited States

Lonny E. BALEY, ET AL.,

Petitioners,
Vv.

UNITED STATES, ET AL.,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Federal Circuit

BRIEF OF AMICUS CURIAE THE
ASSOCIATION OF CALIFORNIA WATER
AGENCIES IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,408 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 16, 2020.

L

Colin Casey Hogfn
Wilson-Epes Printing Co., Inc.

  
